WAIVER

Supreme Court, U.S.
FILED

OCT 1 9 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Joseph D. Gilberti

20-386
Federal Reserve System, et al

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Southwest Florida Water Management District

I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

(Trit

10-19-2020

(Type or print) Name
Firm

0 Mr.

E Ms. 0 Mrs. 0 Miss

Southwest Florida Water Management District

Address

7601 US 301 North (Fort King Highway)

City & State
Phone

Elizabeth M. Fernandez, Esq

Tampa, Florida

813-985-7481 x 2246

Zip
Email

33637-6759

elizabeth.fernandez@swfwmd.state.fl.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: gilbertiwater@gmail.com

LCEIVED
NIOV - 3 2020
FICE OF THE CLERK
'PREME COURT U.S.

Southwest Florida

Water Management District
An Equal
Opportunity
Employer

Kelly S. Rice
Chair, Citrus, Lake, Levy, Sumter

Bartow Office
170 Century Boulevard
Bartow, Florida 33830-7700
(863) 534-1448 or
1-800-492-7862 (FL only)

2379 Broad Street, Brooksville, Florida 34604-6899
(352) 796-7211 or 1-800-423-1476 (FL only)
WaterMatters.org

Sarasota Office
78 Sarasota Center Boulevard
Sarasota, Florida 34240-9770
(941) 377-3722 or
1-800-320-3503 (FL only)

Tampa Office
7601 U.S. 301 North (Fort King Highway)
Tampa, Florida 33637-6759
(813) 985-7481 or
1-800-836-0797 (FL only)

October 19, 2020

Joel Schleicher
Vice Chair, Charlotte, Sarasota
Rebecca Smith
Secretary, Hillsborough, Pinellas
James G. Murphy
Treasurer, Polk
Jack Bispham
Manatee
Roger Germann
Hillsborough
Seth Weightman
Pasco
Brian J. Armstrong, P.G.
Executive Director

Clerk, Supreme Court of the U.S.
One First Street, N.W.
Washington, D.C. 20543
Subject: Supreme Court Case No. 20-386
Joseph D. Gilberti v. Federal Reserve System, et al.
Dear Sir or Madam:
Enclosed please find a Waiver on behalf of Respondent, Southwest Florida Water
Management District, notifying the Court that this respondent does not intend to file a
response to the petition for a writ of certiorari in the above-referenced case, unless one is
requested by the Court.
Sincerely,

Elizabeth M. Fernandez
Elizabeth M. Fernandez, Esq.
Attorney, Southwest Florida Water Management District
Elizabeth.Fernandeza,swfwmd.stateRus
813-985-7481 x 2246

EMF:jp
Enclosure
cc: Joseph D. Gilberti
(gilbertiwater@ginail.corn)

RECEWED
NOV - 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

